May 25, 2010

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Air Networks – Federal Express
         Transportation Agreement – Capital Metro, Eastern, Great Lakes, and
         Northeast Areas (Report Number NL-AR-10-005)

This report presents the results of our self-initiated audit of the Federal Express (FedEx)
transportation agreement. The objectives of our audit were to determine whether
selected transportation operations were effective and economical (Project Number
09XG027NL000). See Appendix A for additional information about this audit.

On August 2, 2006, the U.S. Postal Service signed a new 7-year agreement with
FedEx. FedEx transports time sensitive mail for the Postal Service, including Express
Mail®, Priority Mail®, and First-Class Mail® (FCM). FedEx transportation is usually
more expensive than commercial air carrier or surface transportation, and Postal
Service policy requires transportation managers to balance service and cost in
determining the best transportation mode. In addition, the Postal Service uses Terminal
Handling Services (THS) contractors to prepare and load mail into containers for
transport on FedEx planes. The containers include both bypass and mixed containers.
Bypass containers hold mail bound for the same destination airport and move through
or “bypass” the sorting operations at the FedEx Memphis hub at no additional cost to
the Postal Service. Mixed containers hold mail bound for various destination airports
and must be sorted at the Memphis hub onto departing planes. The Postal Service is
required to pay FedEx for sorting mail at the Memphis hub.
Air Networks – Federal Express Transportation Agreement –                                             NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas



Conclusion

It was more effective and economical in some cases for the Capital Metro, Eastern,
Great Lakes, and Northeast Areas to use ground transportation and domestic air
carriers as well as to sort mail at Postal Service plants than to use FedEx to perform
these functions.1 Because the areas used FedEx, the Postal Service incurred about
$35.3 million in unnecessary costs. If these areas implement our recommended
changes, we estimate the Postal Service could save $170.6 million over a 10-year
period.

Transporting Surface Mail on FedEx

We concluded that in some cases using ground transportation was more advantageous
than using FedEx. By flying surface mail on FedEx instead of using cheaper ground
transportation, the Postal Service spent about $32.1 million more than necessary during
fiscal years (FYs) 2007 and 2008. This occurred because plant employees did not
properly segregate surface mail classes from FCM and Priority Mail. By using ground
transportation, the Postal Service could lower overall FedEx lift requirements and save
about $138.3 million over 10 years. See Appendix B for our detailed analysis of this
topic.

We recommend the vice presidents of Capital Metro, Eastern, Great Lakes, and
Northeast Areas operations:

1. Use surface transportation to the extent possible for mail that does not require air
   transportation to meet Postal Service on-time standards.

Management’s Comments

Management from the four areas agreed with our finding and recommendation.
Management also agreed that the costs of transporting Standard, Periodicals, and
Package Services mail volumes on the FedEx Day Network are unnecessary and that
the Postal Service should use surface transportation for these mail classes. Each area
cited current and/or future efforts and processes that address prevention of this issue.
These efforts include the consolidation of originating processing of Standard and
Periodical mail into fewer sites by the end of this fiscal year to reduce the potential to
comingle mail classes and increased management attention to the matter. Additionally,
each area agreed to reinforce existing national policies related to transporting surface



1
  Each of the four areas agreed these issues were applicable without field visits being conducted. This was based on
their experience and the systemic nature of the same issues identified in prior reviews in the Pacific, Southeast,
Southwest, and Western Areas where fieldwork was conducted covering more than 60 percent of Postal Service
capacity on FedEx transportation.



                                                         2
Air Networks – Federal Express Transportation Agreement –                                          NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


mail classes. See Appendix F for management’s comments, including any revisions or
addendums, in their entirety.2

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers the four area’s
management comments responsive to the finding and recommendation and the
corrective actions should resolve the issues identified in the report.

FedEx Versus Passenger Airlines

When the Postal Service requires air transportation we concluded that in some cases it
is more advantageous to use contracted passenger carriers than to use FedEx. From
May 1, 2008, through April 30, 2009, the Postal Service incurred $1.6 million in
unnecessary costs to move 1.1 million cubic feet of FCM on FedEx from origins in the
Capital Metro, Eastern, Great Lakes, and Northeast Areas. The excess costs were
incurred, because local management did not prioritize mail by assigning it to less costly
and available passenger airlines. The Capital Metro, Eastern, Great Lakes, and
Northeast Areas could save about $17.4 million over a 10-year period by maximizing
the use of passenger airline capacity. See Appendix B for our detailed analysis of this
topic.

We recommend the vice presidents of Capital Metro, Eastern, Great Lakes, and
Northeast Area operations:

2. Transport mail to the maximum extent possible using the service-responsive
   capacity of passenger airlines under contract with the Postal Service.

Management’s Comments

Management from the four areas agreed with our finding and recommendation.
However, the areas did cite examples that preclude moving mail on commercial airlines
and require moving it via FedEx. All areas cited Postal Service Headquarters’ direction
to override normal mail assignment priorities and increase mail volume on FedEx to
meet contract minimums and/or shortcomings of the mail assignment and other systems
as reasons for non-compliance. Management also expressed concern that, in some
instances, the capacity the Postal Service requires does not always align with the
capacity commercial airlines offer.

Overall, each area expressed understanding that, under normal circumstances, it is
more cost effective to use service-responsive commercial airlines rather than FedEx for
transporting FCM. Management from the four areas also stated that they have either
been monitoring or will immediately begin monitoring weekly headquarters’ reports that
2
 We considered all supporting documentation included with management responses, but did not include all the
documentation in the Appendix. In addition, we protected personal identifying information where appropriate.



                                                        3
Air Networks – Federal Express Transportation Agreement –                                            NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


track commercial air lift and volumes, as well as other reports identifying modifications
to air routes in the assignment system. They will also take action when necessary to
ensure maximum use of commercial air.

Evaluation of Management’s Comments

The OIG considers the four area’s management comments responsive to the finding
and recommendation and the corrective action should resolve the issues identified in
the report. We agree that management must consider service, timeframes, and
capacities when assigning mail to commercial air transportation and the areas should
continue to work diligently with headquarters to address capacity issues with
commercial airlines in order to maximize their use. Concerning the areas’ assertions
that certain headquarters reports and systems may not reflect valid non-compliance,
true capacity availability, and/or accurate data, we encourage continued efforts with
headquarters staff to resolve these issues.

The Postal Service has established policies and systems for assigning mail to ensure
that it moves on intended routes, based on availability, service, and cost. We recognize
that conflicting issues can occur in the assignment process, but the Postal Service has
procedures in place to address and correct the process and address issues. Any routing
adjustments to use other, more costly transportation, should be made when it is clearly
documented and determined that stated commercial air capacity is not available or
responsive.

Mixed Versus Bypass Air Containers

Finally, it was more advantageous in some cases for the Postal Service to sort mail than
use FedEx to do it. During the period May 1, 2008, through April 30, 2009, the Capital
Metro, Eastern, Great Lakes, and Northeast Areas unnecessarily spent about $1.5
million to pay FedEx to sort mail because processing plants did not separate and
distribute it in available bypass containers.3 If these areas properly sort and distribute
this mail, the Postal Service could avoid about $14.9 million in unnecessary costs over
10 years. See Appendix B for our detailed analysis of this topic.

We recommend the vice presidents of Capital Metro, Eastern, Great Lakes, and
Northeast Area operations:

3. Sort mail into bypass containers as appropriate.




3
 Bypass containers contain mail for specific destinations that FedEx (Memphis, TN) does not need to sort at an
additional cost.



                                                         4
Air Networks – Federal Express Transportation Agreement –                      NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas



Management’s Comments

Management from the four areas generally agreed with our finding and
recommendation. All of the areas, except the Eastern Area, cited challenges that affect
their ability to achieve the planned bypass matrix, including:

      The 87 percent conversion break point for bypass containers;
      The 75 percent rule of tendering mail to FedEx by 0400;
      Some processing facilities being too small to make all planned separations; and
      The 6-month FedEx matrix planning cycle.

The four areas also cited specific efforts to continue to monitor and review operations or
provide additional instruction to ensure compliance with bypass containerization, and
provided expected dates for improved compliance or documentation for improvements
already realized.

Evaluation of Management’s Comments

The OIG considers the four area’s management comments responsive to the finding
and recommendation and the corrective action should resolve the issues identified in
the report. Regarding management’s comments concerning challenges to achievement
of the planned bypass matrix, the FedEx matrix plan sets goals for bypass containers
tendered to FedEx in order to avoid added sorting costs. Local officials should enforce
established processes to accommodate the plans. Our review determined that
employees did not always follow the established process, resulting in unnecessary
sorting.

Additional Management Comments

Overall, management did not agree with all funds put to better use due to the 10-year
projection methodology included in our report. In summary, however, management
stated their corrective actions should produce positive results by the end of the fiscal
year or sooner, which should reduce or eliminate their exposure to any funds wasted
due to non-compliance for the three issue areas identified in the report.

Evaluation of Management’s Additional Comments

Management did not provide any alternative estimates of projected cost savings or
documentation for the amounts on which they disagreed. We acknowledge
management’s comments regarding current operational and systems challenges and
recognize the corrective actions to reduce or eliminate non-compliance. We based our
savings estimates on the best available data. We will continue working with
management to reach agreement on projected monetary impacts in the process of
closing the significant recommendations.



                                                   5
Air Networks – Federal Express Transportation Agreement –                   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas



The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Susan M. Brownell
    Cynthia F. Mallonee
    Sally K. Haring




                                                   6
Air Networks – Federal Express Transportation Agreement –                     NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In January 2006, the Postal Service formalized a nationwide integrated air strategy for
mail transportation and briefed the Board of Governors. Management explained that the
prior network of passenger airlines was less costly, but also less reliable than other air
transportation contractors such as FedEx. Under the strategy, the Postal Service
intended to reduce the reliance and number of passenger airlines carrying mail; expand
existing air transportation with FedEx and other air cargo carriers; and, where possible,
shift mail moved by air to less costly ground transportation. Management emphasized
that the integrated air strategy was intended to increase air carriers’ on-time
performance, create air network redundancy, improve flexibility, enhance security and
reduce costs by making contracting more competitive and allowing the Postal Service to
eliminate infrastructure.

Passenger Airlines – On June 30, 2006, when the Postal Service’s transportation
contracts with passenger airlines expired, they discontinued most passenger airlines as
domestic air transportation contractors. On September 29, 2006, the Postal Service
announced new air transportation contracts with select passenger airlines. The vice
president, Network Operations, explained that by relying on passenger airlines with
established records of performance, the new contracts would help achieve on-time
delivery and provide higher levels of service.


           Postal Service
       management explained
       that American Airlines
       was a passenger airline
        with reliable, on-time
          performance and
        awarded the airline a
        contract to continue
         providing service.

       American Airlines jet at
        Tampa International
        Airport; February 25,
                2009.




The FedEx Contract – On August 2, 2006, the Postal Service announced they had
truncated the original 2001 contract with FedEx and signed a new 7-year agreement.
The new agreement specified an immediate price reduction in all contract categories
and allowed the Postal Service to continue to outsource THS.




                                                   7
Air Networks – Federal Express Transportation Agreement –                    NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




         On July 31, 2006,
        the Postal Service
          signed a new
        7-year agreement
           with FedEx.

         The air container
           pictured in the
          foreground was
           designed to be
        loaded onto FedEx
              aircraft.



The Postal Service transportation network currently uses THS contractors to prepare and
load mail into containers for transport on FedEx planes. The THS operations contractors
for the Capital Metro, Eastern, Great Lakes, and Northeast Areas are Metro Air Service;
Worldwide Flight Services; and Quantem Aviation Services, Inc.

Under the FedEx contract, the Postal Service periodically negotiates with FedEx for mail
transport capacity. As a contract minimum, the Postal Service pays for 95 percent of the
contracted capacity whether it is used or not.

OBJECTIVES, SCOPE, AND METHODOLOGY

This is the sixth in a series of reports on the FedEx transportation agreement. The
objectives of our audit were to determine whether selected transportation operations in
the Capital Metro, Eastern, Great Lakes, and Northeast Areas were effective and
economical. We based our analysis on computer generated data and results of our prior
audit work conducted in the Pacific, Southeast, Southwest, and Western Areas.

In our four prior area reviews, we interviewed management from Postal Service Network
Operations, area offices, and contract management from FedEx and several THS
providers. We also visited facilities and operations including airport mail centers, THS
operations, and mail processing facilities. We evaluated the types of mail transported;
considered on-time service standards; analyzed alternate solutions for making the best
use of surface and air networks; and observed and photographed operations.

Our prior reviews of Postal Service areas represented more than 60 percent of Postal
Service capacity on FedEx. In meetings with the Capital Metro, Eastern, Great Lakes,
and Northeast Areas, management agreed that conditions and causes identified in prior
reviews were systemic in nature and applicable for their areas. Based on these factors
and our analysis of data, we have reasonable assurance that the conditions and causes
cited in this report are applicable to the subject Postal Service areas; therefore, no
additional site visits were needed or performed in these areas.




                                                   8
Air Networks – Federal Express Transportation Agreement –                      NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




 The Postal Service outsources THS
 operations to contractors, who build
and tender air containers to FedEx for
           transportation.

   FedEx containers loaded by THS
    operations for tender to FedEx,
             Orlando, FL.




We also examined relevant documents, including:

      The Postal Service Integrated Air Strategy, dated January 9, 2006.

      The FedEx contract, dated January 10, 2001, and the extended FedEx contract,
       dated July 31, 2006.

      Postal Service contracts with various passenger airlines.

      Contracts with THS providers.

      Postal Service policies that govern network routing and on-time standards.

We examined computer-generated data from October 2006 through April 2009 to
analyze mail volume, operational efficiency, and costs. We did not audit or
comprehensively validate the data; however, the large amounts of data and its
inaccessibility significantly constrained our work. Extracting more current data during
the audit would have delayed our work.

To address these data limitations, we applied alternate audit procedures. We discussed
the data with Postal Service management, managers, supervisors, employees, and
contractors as well as conducted source document examinations. We did not observe
and conduct physical inspections to validate the data used in this report. We also
discussed our initial findings and recommendations with senior Postal Service
management, considered their perspective, and included their comments where
appropriate.

We conducted this performance audit from July 2009 through May 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our



                                                   9
Air Networks – Federal Express Transportation Agreement –                            NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management during February 2010 and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

                                             Report           Final Report        Monetary
             Report Title                   Number                Date             Impact
Air Networks – Issues In the Pacific      NL-AR-08-001      November 23, 2007    $80.4 million
Area Associated with a Major Postal
Service Customer
Air Networks – Federal Express            NL-AR-08-002      February 19, 2008    $62.8 million
Transportation Agreement – Pacific
Area
Air Networks – Federal Express            NL-AR-08-008      September 29, 2008   $141.3 million
Transportation Agreement – Western
Area
Air Networks – Federal Express            NL-AR-09-002        March 3, 2009      $53.3 million
Transportation Agreement – Southwest
Area
Air Networks – Federal Express            NL-AR-09-007         July 31, 2009      $52 million
Transportation Agreement – Southeast
Area


The reports listed above identified the same or similar issues identified in this report. We
identified FedEx operational efficiency opportunities related to surface mail flown on
FedEx, FCM flown on FedEx, and FedEx container capacity and bypass container use
in the Pacific, Western, Southwest, and the Southeast Areas. Management generally
agreed with our findings and recommendations; however, management did not agree
with the total monetary impact.




                                                  10
Air Networks – Federal Express Transportation Agreement –                                         NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


                               APPENDIX B: DETAILED ANALYSIS

Transporting Surface Mail on FedEx

We concluded that in some cases using ground transportation was more advantageous
for the Postal Service than flying mail on FedEx. Data from the Postal Service’s FYs
2007 and 2008 cost and revenue analyses and the Transportation Cost System
(TRACS) identified large volumes of surface mail4 transported using the FedEx Daytime
Network (Day Turn)5 from origins in the Capital Metro, Eastern, Great Lakes and
Northeast6 Areas to destinations across the country. Postal Service policy requires
transportation managers to balance service and cost. Because surface mail is not as
time sensitive as Express Mail®, Priority Mail, or FCM, the area transportation
managers could have met the Postal Service’s on-time standards by using highway or
rail transportation. By transporting surface mail on FedEx, the Postal Service spent
about $32.1 million more than necessary during FYs 2007 and 2008, as shown in Table
1.

                           Table 1. Excess Costs of Transporting Surface Mail
                             on FedEx Day Turn during FYs 2007 and 2008

            Fiscal                                          Standard        Package
             Year                       Periodicals           Mail          Services        Total Cost

       2007 A          reas Total        $5,713,385         $5,924,799     $3,409,557 $15,0       47,741

       2008 A          reas Total         4,433,001          6,943,241       5,709,960 17,08       6,202

       Totals                         $10,146,386      $12,868,040        $9,119,517       $32,133,942

                Note: We extracted information from Postal Service cost and revenue analysis data.
                           All numbers are rounded. For more details, see Appendix D.

The Capital Metro, Eastern, Great Lakes, and Northeast Areas transported surface mail
on FedEx, and the Postal Service incurred excess costs, in part, because employees at
the areas’ processing plants did not properly segregate surface mail classes from FCM
and Priority Mail during distribution operations. Specifically, during our site visits to
processing plants in prior reviews, we observed plant employees placing surface mail
into FCM and Priority Mail containers or sacks for transport by FedEx using the Day
Turn network.7 See Appendix E for details8 on TRACS data for the Capital Metro,
Eastern, Great Lakes, and Northeast Areas.


4
  Surface mail includes magazines, advertising, and merchandise shipped by major mailers such as publishers,
catalog companies, or online retail companies.
5
  FedEx Day Turn operations are principally for transporting FCM and Priority Mail during daytime hours.
6
  The New York Metro Area was absorbed into the Eastern and Northeast Areas, effective October 1, 2009.
7
  Managers from the Capital Metro, Eastern, Great Lakes, and Northeast Areas agreed that the conditions we
observed in the Pacific, Southeast, Southwest, and Western Areas were occurring in their areas.
8
  The shaded blue blocks in Appendix E show over a 3 year period that surface mail class volume was found in FCM
and Priority Mail containers being flown on FedEx.



                                                       11
Air Networks – Federal Express Transportation Agreement –                                       NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




      Standard Mail in First-Class Letter Trays and Periodicals in Flat Tubs destined for transportation
           on FedEx, Atlanta Processing and Distribution Center (P&DC) (February 11, 2009) and
                                   Jacksonville P&DC (February 23, 2009).

We recognize that overall mail volume has decreased in FYs 2008 and 2009; however,
the volumes of surface mail classes transported on FedEx have not declined. In fact,
the percentage transported on FedEx has increased in FYs 2008 and 2009 as shown in
the following chart:




If these surface mail classes were transported on surface transportation, the Postal
Service could lower overall FedEx lift requirements and save about $138.3 million in the
four selected areas over 10 years. See Appendix C for a breakdown of unnecessary
costs and potential cost avoidance.




                                                     12
Air Networks – Federal Express Transportation Agreement –                                            NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


FedEx Versus Passenger Airlines

It was more advantageous in some cases for the Postal Service to use domestic
carriers to fly mail than to pay FedEx to fly mail. From May 1, 2008, through April 30,
2009, the Postal Service incurred almost $1.69 million in unnecessary costs to move 1.1
million cubic feet of FCM on FedEx from origins in the Capital Metro, Eastern, Great
Lakes, and Northeast Areas. The Postal Service incurred the excess costs because
local management did not follow mail assignment priorities by assigning mail to less
costly and available commercial air transport. See Table 2.
    Table 2. Available Unused Capacity on Passenger Airlines Analysis of the Capital Metro, Eastern,
                  Great Lakes and Northeast Areas – May 1, 2008, through April 30, 2009

                                             Unused Passenger Airline           Excess
                           Postal Areas       Capacity in Cubic Feet             Costs

                         Capital Metro                 116,974                   $209,581

                         Eastern                       333,813                    489,566

                         Great Lakes                   187,513                    299,624

                         Northeast                     458,032                    584,097

                         Totals                      1,096,332                $1,582,868

           Note: The amount of excess costs attributable to the New York Metro Area (Newark, JFK, San
           Juan) before it was merged with the Northeast Area was $430,896, and the unused capacity was
           358,041 cubic feet. This is included in Northeast Excess Costs section. For more details, see
           Appendix D.

Postal Service transportation managers told us that transportation on FedEx was the
most costly transportation mode, passenger airlines were less costly, and surface was
the least costly.

Management generally assigns FCM according to these priorities:

          Surface transportation when on-time service standards can be met.

          Passenger airlines when FedEx contract requirements have been met.

          FedEx when air transportation is required and capacity on passenger airlines or
           other commercial carriers is unavailable.

For FCM that requires air transportation, Postal Service processing plants assign the
mail to air carriers before dispatching it to airports. During many site visits to THS
9
 The questioned costs and projected savings for this finding were adjusted for periods in August 2008 because of
Postal Service Headquarters’ instructions to divert FCM from normal commercial air routings to the FedEx day
network in order to meet contract matrix minimum volume guarantees.



                                                        13
Air Networks – Federal Express Transportation Agreement –                       NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


operations at various airports in the Pacific, Southeast, Southwest, and Western Areas,
we observed FCM arriving from processing plants that was routinely assigned to FedEx
when FedEx contract minimums had already been met and availability existed on less
costly passenger airlines.

We concluded that Capital Metro, Eastern, Great Lakes, and Northeast Area
transportation managers have an opportunity to meet on-time standards and save about
$17.4 million over 10 years if they maximize the capacity of selected passenger airlines.
See Appendix C for a breakdown of unnecessary costs and potential cost avoidance.

Mixed Versus Bypass Air Containers

We found it was more advantageous in some cases for the Postal Service to sort mail
than it was for FedEx to sort mail. During the period May 1, 2008, through April 30,
2009, the Capital Metro, Eastern, Great Lakes, and Northeast Areas unnecessarily
spent about $1.5 million to pay FedEx to sort mail at the FedEx Memphis hub.

The Postal Service tenders mail to FedEx in both bypass and mixed containers.

      Bypass containers hold mail bound for the same destination airport and move
       through the FedEx Memphis hub at no additional sorting cost to the Postal
       Service.

      Mixed containers hold mail bound for various destination airports and must be
       sorted at the Memphis hub onto departing planes. The Postal Service is required
       to pay FedEx for sorting mail at the hub.

The Postal Service’s contract with FedEx establishes mail sorting fees charged to the
Postal Service. During the analysis period, FedEx charged between 60 and 62 cents for
sorting each sack, tub, tray, or similar mail handling unit. Sorting mail for a single FedEx
air container could cost more than $300.



     This picture shows a fully loaded FedEx air
      container prepared by THS in Tampa, FL;
     February 24, 2009. Management planned to
   transport the container to the FedEx Memphis
                   hub for sorting.




Metro Air Service; Worldwide Flight Services; and Quantem Aviation Services, Inc., are
the Postal Service contractors for most THS operations in the Capital Metro, Eastern,


                                                   14
Air Networks – Federal Express Transportation Agreement –                                 NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


Great Lakes, and Northeast Areas. The contractors load FedEx air containers for
transport on FedEx aircraft. For many valid operational reasons, the contactors cannot
always load mail into bypass containers and, instead, must load it in mixed containers.
To balance service and cost, the Postal Service establishes goals for bypass versus
mixed containers. Our analysis of the Capital Metro, Eastern, Great Lakes, and
Northeast Areas for the period May 1, 2008, through April 30, 2009, showed the areas
achieved a 51-percent average of planned bypass goals. See Table 3.
 Table 3. Capital Metro, Eastern, Great Lakes, and Northeast Areas – Planned and Actual Bypass
                    Mail Sorted by FedEx - May 1, 2008, through April 30, 2009

                                      Planned         Actual          Planned Bypass
                                      Bypass         Bypass         Cubic Feet Achieved
                Postal Areas         Cubic Feet     Cubic Feet           (Percent)

                Capital Metro         4,991,236        3,023,824          60.58%

                Eastern               4,833,073        3,134,839          64.86%

                Great Lakes           6,794,188        3,690,413          54.32%

                Northeast            13,908,549        5,870,018          42.20%

                Totals               30,527,046        15,719,094        51.49%

     Note: The New York Metro Area has combined with the Northeast Area, which includes New York,
                NY; Rochester, NY; and San Juan, PR. For more details, see Appendix D.

Because the Capital Metro, Eastern, Great Lakes, and Northeast Areas operations did
not meet planned container bypass cubic feet, the Postal Service spent more than
necessary to sort mail using FedEx. Our analysis of FedEx scan data for the period
identified more than 2.5 million mail bags, trays, tubs, or other mail handling units that
FedEx unnecessarily sorted. As a result, the Postal Service paid FedEx about $1.5
million more than needed. See Table 4.




                                                  15
Air Networks – Federal Express Transportation Agreement –                                  NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas

Table 4. Capital Metro, Eastern, Great Lakes, and Northeast Areas – Cost Analysis of Unnecessary
                      Handling Charges - May 1, 2008, through April 30, 2009

                                     Handling Units that could have    Unnecessary
                                      been transported in Planned       Handling
                  Postal Areas            Bypass Containers              Charges

                  Capital Metro                       518,469                $318,386

                  Eastern                             399,647                  245,447

                  Great Lakes                         904,440                  555,720

                  Northeast                           700,812                  428,884

                  Totals                         2,523,368                 $1,548,437

 Note: The amount of unnecessary handling charges attributable to the New York Metro Area before it was
  merged with the Northeast Area was $313,679, and the number of handling units that could have been
                            transported in bypass containers was 512,998.

This condition occurred because Postal Service mail processing plants did not:

      Adequately separate and identify bypass mail before sending it to the THS
       contractors.

      Dispatch mail to airports in time for THS contractors to place the mail in bypass
       containers. Management at some THS sites we visited stated that mail routinely
       arrived late from local facilities; and as a result, the THS contractors converted
       containers from bypass to mixed so they could be tendered on-time to FedEx.



   FedEx freight and U.S. mail conveyed through
      the FedEx Memphis hub sort operation,
                   April 20, 2005.

 FedEx charges the Postal Service for every sack,
      tub, tray, or other mail handling unit.

 Note that U.S. mail packages, Priority Mail sacks,
    and an overturned tub are being conveyed
   through the sort operation commingled with
                  FedEx freight.




If Capital Metro, Eastern, Great Lakes, and Northeast Areas processing plants properly
separate bypass mail and dispatch mail to airports on time, the Postal Service could
avoid about $14.9 million in unnecessary sorting costs over the next 10 years. See
Appendix C for details of unnecessary costs and potential cost avoidance.




                                                       16
Air Networks – Federal Express Transportation Agreement –                                             NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


 APPENDIX C: SUMMARY MONETARY IMPACTS IN CAPITAL METRO, EASTERN,
      GREAT LAKES, AND NORTHEAST AREAS’ FEDEX OPERATIONS

                      Unrecoverable Questioned Costs (Unnecessary Costs)10
                                October 2007 through April 2009
                                            Cost Category                                         Amount

         Cost to transport surface mail on FedEx Day Turn (FYs 2007 & 2008).
            Capital Metro                                                                            $8,458,355
            Eastern                                                                                   7,742,761
            Great Lakes                                                                               7,537,391
            Northeast                                                                                 8,395,436
              Total                                                                               $32,133,942
         (Note: The amount of cost attributable to the New York Metro Area before it was merged
         with the Northeast Area was $4,062,740)

         Excess cost of FCM that could have been transported on less costly
         passenger airlines (May 2008 through April 2009).
            Capital Metro                                                                             $209,581
            Eastern                                                                                    489,566
            Great Lakes                                                                                299,624
            Northeast                                                                                  584,097
             Total                                                                                 $1,582,868
         (Note: The amount of cost attributable to the New York Metro Area before it was merged
         with the Northeast Area was $430,896)

         Avoidable sorting costs at the FedEx Memphis hub (May 2008
         through April 2009).
            Capital Metro                                                                             $318,386
            Eastern                                                                                    245,447
            Great Lakes                                                                                555,720
            Northeast                                                                                  428,884
             Total                                                                                 $1,548,437

         (Note: The amount of cost attributable to the New York Metro Area before it was merged
         with the Northeast Area was $313,679)

         Total                                                                                    $35,265,247




10
     Costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.



                                                                17
Air Networks – Federal Express Transportation Agreement –                                             NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


                    Funds Put to Better Use (Potential Cost Avoidance)11

                                  Method of Cost Avoidance                           Amount

               Moving surface mail on less costly surface
               transportation.
                  Capital Metro                                                         $36,403,432
                  Eastern                                                                38,660,156
                  Great Lakes                                                            32,439,749
                  Northeast                                                              30,796,114
                   Total                                                            $138,299,451

               Using commercial passenger airlines to move FCM
               when capacity exists and FedEx contract minimums
               have been met.
                  Capital Metro                                                          $2,210,543
                  Eastern                                                                 5,348,313
                  Great Lakes                                                             3,205,361
                  Northeast                                                               6,590,700
                   Total                                                             $17,354,917

               Avoiding FedEx sorting charges by maximizing
               direct containers and pursuing additional
               opportunities to further reduce charges.
                  Capital Metro                                                          $3,068,355
                  Eastern                                                                 2,365,154
                  Great Lakes                                                             5,352,573
                  Northeast                                                               4,147,480
                   Total                                                             $14,933,562

               Total                                                                $170,587,930




11
  Funds that could be used more efficiently by implementing recommended actions. OIG uses a 10-year cash flow
methodology, discounted to present value by applying factors published by Postal Service Headquarters Finance
when calculating these monetary impacts. Fluctuations in mail volume over time may impact the 10-year projection
results.



                                                        18
Air Networks – Federal Express Transportation Agreement –                                         NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


        APPENDIX D: DETAILS OF UNRECOVERABLE QUESTIONED COSTS
                      (UNNECESSARY COSTS) BY ISSUE

                        Transporting Surface Mail on FedEx Day Turn

                    Expanded Table 1. Excess Costs of Transporting Surface Mail
                          on FedEx Day Turn during FYs 2007 and 2008

        Fiscal                                                Standard        Package
         Year             Area            Periodicals           Mail          Services        Total Cost

      2007 Cap         ital Metro           $1,338,698           $873,581       $647,260     $2,859,539
           Easte         rn                  2,397,570          1,269,269        464,845       4,131,685
                   Great Lakes               1,256,084          1,899,025        715,976       3,871,086
                   Northeast                   573,295            738,497        856,255       2,168,047
                   N Y Metro                   147,738          1,144,127        725,219       2,017,384
             A      reas Total              $5,713,385         $5,924,799     $3,409,557 $15,0    47,741

      2008         Capital Metro            $1,117,552         $2,688,357     $1,792,907       $5,598,816
                   Eastern                   1,766,602          1,132,774        711,701        3,611,076
                   Great Lakes                 782,531          1,867,467      1,016,307        3,666,305
                   Northeast                   447,465            430,402      1,286,783        2,164,649
                   NY Metro                    318,852            824,241        902,262        2,045,356
                   Areas Total              $4,433,001         $6,943,241     $5,709,960      $17,086,202

      Totals                             $10,146,386         $12,868,040     $9,119,517     $32,133,942

   Note: We extracted information from Postal Service cost and revenue analysis data. All numbers are
   rounded.




                                                        19
Air Networks – Federal Express Transportation Agreement –                                         NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


                                FedEx Versus Passenger Airlines
   Expanded Table 2. Available Unused Capacity on Passenger Airlines Analysis of the Capital
     Metro, Eastern, Great Lakes, and Northeast Areas – May 1, 2008, through April 30, 2009

                                                           Unused Passenger Airline           Excess
        Postal Areas      Point of Origin                   Capacity in Cubic Feet             Costs
        Capital Metro     Baltimore                                  49,112                  $56,100
        Ch                   arlotte                                  8,607                   18,243
        Green                    sboro                               26,706                   84,871
        W                   ashington, DC (Dulles)                   11,058                   19,417
                          Raleigh-Durham                             21,491                   30,950
                           Sub Total                                116,974               $20 9,581

        Eastern           Cleveland                                  58,946                    $88,418
                          Columbus                                  113,745                    186,913
                          Cincinnati                                     42               8           8
                          Philadelphia                              152,688                     201,587
                          Pittsburgh                                  2,506                       4,905
                          Louisville                                  5,886                       7,735
                           Sub Total                                333,813                    $489,566

        Great Lakes       Detroit                                    25,844                     $33,528
                          Indianapolis                               28,161                      62,056
                          Milwaukee                                  43,687                      87,827
                          Chicago (O'Hare)                           34,147                      35,366
                          Saint Louis                                55,674                      80,847
                           Sub Total                                187,513                    $299,624

        Northeast         Hartford                                   27,075                     $36,054
                          Boston                                     72,916                     117,147
                          Newark                                     27,415                      33,194
                          New York (JFK)                            326,790                     392,323
                          San Juan                                    3,836                       5,379
                           Sub Total                                458,032                    $584,097

        Totals                                                    1,096,332               $1,582,868

      Note: The amount of excess costs attributable to the New York Metro Area (Newark, JFK, San Juan) before it
      was merged with the Northeast Area was $430,896 and the unused capacity was 358,041 cubic feet.




                                                      20
Air Networks – Federal Express Transportation Agreement –                             NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas



                            Mixed Versus Bypass Air Containers
Expanded Table 3. Capital Metro, Eastern, Great Lakes, and Northeast Areas – Planned and Actual
              Bypass Mail Sorted by FedEx - May 1, 2008, through April 30, 2009

                                                                               Planned Bypass
                                                  Planned                         Cubic Feet
                                                  Bypass       Actual Bypass      Achieved
     Postal Areas       Point of Origin          Cubic Feet     Cubic Feet         (Percent)

     Capital Metro      Baltimore, MD              1,110,773       790,609        71.18%
                        Charlotte, NC              1,369,862       793,135        57.90%
                        Greensboro, NC               512,565       260,836        50.89%
     W                    ashington, DC
                        (Dulles)                   1,380,362       945,819        68.52%
     Norfolk,                    VA                   65,650         4,040         6.15%
                        Raleigh-Durham, NC           450,551       183,458        40.72%
                        Richmond, VA                 101,473        45,927        45.26%
                         Sub Total                 4,991,236     3,023,824        60.58%

     Eastern            Cleveland, OH                 69,554        37,288        53.61%
                        Cincinnati, OH              677,523        508,345        75.03%
     Philadelp                    hia, PA          2,934,199     1,719,886        58.62%
                        Pittsburgh, PA               661,952       474,667        71.71%
                        Louisville, KY              489,845        394,653        80.57%
                         Sub Total                 4,833,073     3,134,839        64.86%

     Great Lakes        Detroit, MI               1,142,550        922,371        80.73%
                        Grand Rapids, MI            312,434        249,845        79.97%
                        Indianapolis, IN          1,086,571        729,943        67.18%
                        Milwaukee, WI             1,700,020        377,584        22.21%
                        Chicago, IL (O’Hare)      2,552,613      1,410,670        55.26%
                         Sub Total                6,794,188      3,690,413        54.32%

     Northeast          Newark, NJ                 2,970,223     1,767,937        59.52%
                        New York, NY (JFK)        4,553,755      1,713,555        37.63%
                        San Juan, PR                 350,207       232,908        66.51%
                        Hartford, CT              2,186,705      1,317,285        60.24%
     Bos                    ton, MA                 465,337        141,733        30.46%
                        Manchester, NH            1,982,935        171,756         8.66%
                        Rochester, NY             1,399,387        524,844        37.51%
                         Sub Total               13,908,549      5,870,018        42.20%


     Totals                                     30,527,046      15,719,094        51.49%




                                                  21
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas


                           APPENDIX E: TRACS DATA BY AREA




                                                  22
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  23
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  24
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  25
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas



                       APPENDIX F: MANAGEMENT’S COMMENTS




                                                  26
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  27
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  28
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  29
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




   Checklist Excerpt:




                                                  30
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  31
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  32
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  33
Air Networks – Federal Express Transportation Agreement –        NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                            34
Air Networks – Federal Express Transportation Agreement –        NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                            35
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  36
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  37
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  38
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  39
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-005
 Capital Metro, Eastern, Great Lakes, and Northeast Areas




                                                  40
